HHS/OIG-Audit--"Review of Health and Safety Standards at Child Care Facilities in Wisconsin, (A-05-92-00103)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Health and Safety Standards at Child Care Facilities in Wisconsin,"
(A-05-92-00103)
September 28, 1993
Complete Text of Report is available in PDF format
(2.17 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out the results of our review of Health and Safety Standards
at Child Care Facilities in Wisconsin. The State needs to improve health and
safety conditions as well as recordkeeping at the facilities. We found 755 violations
of State codes and areas where improvements can be made. The violations ranged
from discrepancies in employees' records such as missing character or personal
reference checks and incomplete children's medical records to fire code violations
and unsanitary conditions. We recommended actions the State should take to strengthen
compliance with health and safety standards.